\

CASE NO.:

IN THE
SUPREME COURT OF
THE UNITED STATES

TIMOTHY B. BROWN,

Supre

AUB~32020
22HCEgp ^clerk

Petitioner
v.
U.S. BANK NATIONAL ASSOCIATION, et al,
Respondents

On Petition for
A WRIT OF CERTIORARI to the United States Court of Appeals for the
Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Timothy B. Brown
165 Monticello Way
Fayetteville, GA 30214
770-827-6458
\^VOV)0*^Qnmobgyn. onmiero safe com
Petitioner Sui Juris

QUESTIONS PRESENTED
I.

Does the Supreme Court’s Ruling in Arizona v. California, 530 U.S.
392 (2000) empower a District Judge to Raise the issue of res judicata
sua sponte in a case where the District Judge refers the Case to a
Magistrate to determine if res judicata applies to the case?

II.

If the Supreme Court answers yes to the above question, then Does the
Raising of the Issue of res judicate Violate a Pro Se Litigant’s Due
Process Rights and does such action undermine the Adversary Process
of our Legal System?

9

CERTIFICATE OF INTERESTED PERSONS

PLAINTIFF-PETITIONER DOES NOT HAVE A PARENT
CORPORATION AND IS NOT A PUBLICLY HELD CORPORATION.

INTERESTED PARTIES ARE AS FOLLOWS:

BATTEN, SR., TIMOTHY C. ~ U.S. DISTRICT JUDGE

BROWN, TIMOTHY B. ~ PETITIONER

EBBS, ARTHUR A. - ATTORNEY FOR RESPONDENTS

EDWARDS, CHRISTOPHER C. - MAGISTRATE JUDGE FAYETTE
COUNTY, GA

GORDON, STUART - ATTORNEY FOR U.S. BANK, NATIONAL
ASSOCIATION

2

MCCALLA RAYMER LEIBERT PIERCE, LLC ~ ATTORNEYS FOR U.S.
BANK, N.A.

U.S. BANK, N.A. - ORIGINAL LENDER ~ RESPONDENT

VINEYARD, RUSSELL G. - U.S. MAGISTRATE JUDGE

WELLS FARGO BANK, N.A. - ALLEGED HOLDER OF NOTE RESPONDENT

WELLS FARGO HOME MORTGAGE - SERVICER OF MORTGAGE
LOAN

WOMBLE BOND DICKINSON (US), LLP - ATTORNEYS FOR
RESPONDENTS

3

STATEMENT REGARDING ORAL ARGUMENT

Petitioner waives Oral Argument at this time.

4

TABLE OF CONTENTS

CERTIFICATE OF INTERESTED PERSONS

2

Plaintiff-PETITIONER does not have a parent corporation and is not a
publicly held corporation..................................................................................

2

Interested parties are as follows:

2

Batten, Sr., Timothy C. — U.S. District Judge

2

Brown, Timothy B. — PETITIONER

2

Ebbs, Arthur A. — Attorney for RESPONDENTS

2

Edwards, Christopher C. — Magistrate Judge Fayette County, GA

2

Gordon, Stuart — Attorney for U.S. Bank, National Association

2

McCalla Raymer Leibert Pierce, LLC — Attorneys for U.S. Bank, N.A.

3

U.S. BANK, N.A. — Original Lender — RESPONDENT

3

Vineyard, Russell G. — U.S. Magistrate Judge

3

Wells Fargo Bank, N.A. — Alleged holder of note — RESPONDENT

3

Wells Fargo Home Mortgage — Servicer of Mortgage Loan

3

Womble Bond Dickinson (US), LLP — Attorneys for RESPONDENTS

3

STATEMENT REGARDING ORAL ARGUMENT

4

TABLE OF AUTHORITIES

7

QUESTIONS PRESENTED

9

PETITION FOR WRIT OF CERTIORI - APPENDICES
A - Petitioner’s Original Complaint
5

35

B - Ordeer Referring Case to Magistrate

92

C - Magistrate’s Opinion and Recommendations

94

D - District Judge’s Order Dismissing Case

132

E - Judgment

138

F - Petitioner’s Motion for New Trial

139

G - Notice of Appeal

146

H - Order Denying Motion for New Trial

149

I - Eleventh Circuit Court Opinion

156

J - Eleventh Circuit Court Judgment

162

K - Motion for Rehearing Denied

166

Jurisdiction

12

Constitutional and Statutory Provisions Involved

13

Statement of the Case

13

Argument in Support of the Writ

23

Conclusion

31

Certificate of Service

32

6

TABLE OF AUTHORITIES
Cases
Arizona v. California, 530 U.S. 392, 412-13 (2000)

9,24,25,28,29,30

Caperton v. A.T. Massey Coal Co., Inc., 556 U.S. 868 (2009)

27

GJR Investments, Inc. v. County ofEscambia, Fla., 132 F. 3d 1359
(1 lth Cir. 1998)

30

Goldberg v. Kelly, 397 U.S. 254, 271 (1970)

27

id.

14,29

In re: Air Crash Disaster, 879 F. Supp. 1996 (N.D. Ga 1994)

30

In Re: Timothy B. Brown, U.S. Bankruptcy Court 16-12409-WHD

19

Louisville N.R. Co. v. M/VBayo Lacombe, 597 F. 2d 469, 471 n. 1
(5th Cir. 1979)

26

Norfolk Southern Corp. v. Chevron, USA, 371 F. 3d 1285, 1289
(11th Cir. 2004)

26

Schweiker v. McClure, 456 U.S. 188,195 (1982)

27

U.S. v. Burkhalter, 966 F. Supp. 1223,125 n. 4 (S.D. Ga 1997)

30

Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547, 556 (7th Cir. 2012)

14

Statutes
12

28 U.S.C. § 1254(1)
Fed.R.Civ.P. 8

21,25,26,29
7

Fed.R.Civ.P. 12(b)(6)

21

SCOTUS Rule 10

23

Regulations
Dep’t Treasury, Supplemental Directive 09-01

15

Emergency Economic Stabilization Act.

14

Home Affordable Modification Program (HAMP)
Troubled Asset Relief Program (TARP)

14,15,18
...14

Articles
“Judge Rips Into U.S. Bank For Taking Bailout Money But Denying Mortgage
Modifications,” (https://consumerist.com/2011/11/16/judge-rips-into-us-bank-fortaking-bailout-money-but-denying-mortgage-modifications/)

15

Freund, Paul A. “On Law and Justice.” Belknap Press of Harvard
University Press of Harvard University Press, Cambridge, 1968. P71

8

26

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
Petitioner Timothy B. Brown on January 3, 2019, filed his lawsuit for
Wrongful Foreclosure, Negligence, Conversion, Fraud, and Request for Injunctive
Relief. (Appendix, Tab A)
On January 3, 2019, the District Judge signed an Order referring the case to a
magistrate judge to determine whether Petitioner’s claims are barred by resjudicata.
(Appendix, Tab B)
On July 22, 2019, the Magistrate Judge issued his Final Report and
Recommendations. Doc. 10. The Magistrate Judge recommended that Petitioner’s
Complaint be dismissed as barred by res judicata and in the alternative, for failure
to state a claim. (Appendix, C)
On August 19, 2019, the District Judge signed his order adopting most of the
Magistrate Judge’s recommendations. (Appendix, D). The District Judge ruled that
Petitioner’s claims are barred by res judicata, his negligence claim is barred by
HAMP, and he should not have been allowed to amend his fraud claim as such claim
10

is barred by res judicata. Petitioner contends that the District Judge erred in each of
these rulings.
On August 19, 2019, the Clerk issued the final judgment. (Appendix, E)
On August 30, 2019, Petitioner filed his Motion for New Trial. (Appendix, F)
On September 19, 2019, Petitioner filed his Notice of Appeal. (Appendix, G)
Further, on September 19, 2019, the Court signed its Order denying
Petitioner’s Motion for New Trial which the District Court took as a Motion for
Reconsideration. (Appendix, H)
On April 15, 2020, The Appeals Court for the Eleventh Circuit rendered its
decision denying Petitioner’s Appeal. (Appendix, I)
Also, on April 15, 2020, the District Clerk issued judgment of dismissal.
(Appendix, J)

11

JURISDICTION
The date on which the United States Court of Appeals decided Petitioner's
case was April 15, 2020. (Appendix I and J)
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 27, 2020, and a copy of the order denying
rehearing appears at Appendix K.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment to the U.S. Constitution
No person shall... be deprived of life, liberty, or property, without due
process of law.
28 U.S. Code $ 1254.Courts of appeals; certiorari: certified questions
(1) By writ of certiorari granted upon the petition of any party to any
civil or criminal case, before or after rendition of judgment or decree;
(2) By certification at any time by a court of appeals of any question of
law in any civil or criminal case as to which instructions are desired, and upon
such certification the Supreme Court may give binding instructions or require
the entire record to be sent up for decision of the entire matter in controversy.

12

Federal Rules of Civil Procedure Rule 8. General Rules of Pleading
(c) Affirmative Defenses.
(1) In General. In responding to a pleading, a party must affirmatively
state any avoidance or affirmative defense, including:
... res judicata...

STATEMENT OF THE CASE
On April 15, 2020, the Circuit Court of Appeals for the Eleventh Circuit
affirmed the dismissal of Petitioner’s case on res judicata grounds. The Appeals
Court did not address the other issues raised by Petitioner such as the impropriety of
the District Court raising the issue of res judicata sua sponte, the failure of
Respondents to raise res judicata in their Motion to Dismiss, how the District Court’s
action violated Petitioner’s due process rights, and the degree to which the Court’
activism unbalanced our adversary process. (Appendix D) A summary of the
relevant facts follow.

13

On January 3, 2019, Petitioner filed his lawsuit for Wrongful Foreclosure,
Negligence, Conversion, Fraud, and Request for Injunctive Relief. (Appendix A)
Petitioner alleged the following facts in support of his Complaint.
1.

In response to rapidly deteriorating financial market conditions in the

late summer and early fall of 2008, Congress enacted the Emergency Economic
Stabilization Act. The centerpiece of the Act was the Troubled Asset Relief Program
(TARP), which required the Secretary of the Treasury to “implement a plan” to
“minimize foreclosures” and keep troubled mortgage -borrowers in their homes.2
2. The Treasury Secretary created the HAMP program to carry out
Congress’s mandate. HAMP received $50 billion in TARP funds.3 Mortgage lenders
that chose to participate in the HAMP program were eligible to receive allocations
of the stimulus funds.
3. Respondent Wells Fargo chose to participate in HAMP. To participate,
Respondent Wells Fargo was required to comply with all HAMP program
requirements. In exchange for up to $6.4 billion in HAMP funds, Wells Fargo agreed
to abide by all “guidelines and procedures issued by the Treasury with respect to
[HAMP]” and “any supplemental documentation ...issued by the Treasury,”

All facts are taken from Petitioner’s Complaint unless otherwise noted, except Plaintiff has been changed to Petitioner
and Defendant is changed to Respondent.
2 Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547, 556 (7th Cir. 2012).
3 Id.

14

including “Supplemental Directives.” See Wells Fargo, Amended and Restated
Servicer Participation Agreement, Sec. 1(B).4
4. In a Supplemental Directive, the Treasury Secretary required loan
servicers participating in HAMP to issue a mortgage modification to any borrower
who met all the criteria to qualify. See Supplemental Directive 09-01 (If a borrower
meets all qualifying criteria, “the servicer MUST offer the modification”) (emphasis
in original).
5. Respondent U.S. Bank accepted more than $20 Billion Dollars in
HAMP funds. However, a Federal Judge in Georgia lambasted Respondent U.S.
Bank for denying otherwise eligible mortgagors loan modifications.5 Respondent
U.S. Bank agreed to the same terms and conditions for receiving HAMP funds as
did Respondent Wells Fargo.
6. On or about September 16,2005, Petitioner purchased the real property
located at 165 Monticello Way, Fayetteville, Fayette County, Georgia, (hereinafter
“Subject Property”) described legally as:
All that tract or parcel of land lying and being in Land Lot 197 of the 13th
District of Fayette County, Georgia, and being Lot 14, Block C, Unit 1 of

4

Available at https://tinyurl.com/wells-fargo-hanip-agreement.

5 “Judge Rips Into U.S. Bank For Taking Bailout Money But Denying Mortgage Modifications,”
(https://consumerist.eom/2011/l 1/16/judge-rips-into-us-bank-for-taking-bailout-money-but-denying-mortgagemodifications/).

15

the Dix-Lee'On Corporation Subdivision, as per plat recorded in Plat Book
6, Page 115, Fayette County, Records, and being more particularly
described as follows:
Beginning at a point located on the southwesterly side of Monticello
Way, 900 feet Southeasterly as measured along the Southwesterly side
of Monticello Way, from the intersection of the Southwesterly side of
Monticello Way and the Southerly side of the Dix-Lee'On Drive, said
point of beginning also being located at the Southeast comer of Lot 13
of said Block, Unit and Subdivision; thence mnning Southeasterly
along the Southwesterly side of Monticello Way, 100 feet to a point at
the Northeast comer of Lot 15 of said Block, Unit, Subdivision; thence
mnning Southwesterly along the Northwesterly side of said Lot 15,249
.4 feet to a point; thence mnning Northwesterly 180 feet to a point at
the Southwest comer of Lot 13 of said Block, Unit and Subdivision;
thence mnning Northeasterly along the Southeasterly side of said Lot
13, 249.8 feet to the Point of Beginning.
7. On that same date, Petitioner borrowed $389,500.00 from Respondent
Wells Fargo to finance said purchase and in conjunction with such loan, he executed
a Security Deed and Note with Respondent Wells Fargo in the principle amount of
$389,500.00 by which Respondent Wells Fargo became Petitioner’s mortgagee. A
16

true and correct copy of Petitioner’s Security Deed is attached to his Complaint as
Exhibit B (Appendix A) and this document is incorporated into this pleading by
reference. On April 21, 2015, Respondent Wells Fargo assigned the Security Deed,
but not the Note, to Respondent U.S. Bank. Respondent U.S. Bank became the
servicer of the Security Deed and thus remained liable for the terms and conditions
and duties of the Security Deed.
8. In early 2016, as the result of a worsening economy, Petitioner notified
Respondent U.S. Bank and Respondent Wells Fargo that he had suffered a reduction
in salary, and he wished to apply for a loan modification under HAMP so that he
could keep making his mortgage payments.
9. At the time he made these requests, Petitioner was not behind in his
mortgage and was not aware that his mortgage loan had been paid in full.
10. The Respondents responded by telling Petitioner he was ineligible to
apply for a loan modification until his mortgage debt was at least 30 days past due.
Petitioner relied in good faith on the representations of Respondents and allowed his
mortgage to fall into arrears.
11. Once his mortgage debt was at least 30 days past due, Petitioner
reapplied for a loan modification. This time, Petitioner’s application was accepted,
and Petitioner submitted all the required documents including proof of his salary
reduction and the fact that he now had two children going off to college.
17

12. After he submitted his loan modification request, Petitioner received
from Respondent Wells Fargo a Notice of Foreclosure Sale scheduled for 90 days
after the submission of his loan modification request. Thereafter, Petitioner had a
face-to-face meeting with Respondent Wells Fargo at which he was led to believe
that his loan modification would be approved. As a result of this assurance,
Petitioner took no further efforts to avail himself of any of his other alternatives to
foreclosure.
13. At the time he applied for a loan modification pursuant to HAMP,
Petitioner was eligible for a loan modification given that he had suffered two
financial setbacks and he had sufficient income to pay 31% of his income in
mortgage payments. Thus, it was with great distress and agony that Petitioner
received notice on the 85th day after his application that his request for a loan
modification had been denied.
14. Sometime in September 2016, on the 91st day after his application for
HAMP relief, Petitioner received a Notice of Foreclosure Sale dated August 30,
2016 from the law firm of McCalla Raymer Pierce, LLC. The letter was not signed,
and it was not clear which, if any, of the Respondents the law firm was representing.
The letter stated that the Subject Property would be foreclosed against on the first
Tuesday in October 2016.

18

15. On December 2, 2016, Petitioner filed a Chapter 13 Bankruptcy
Petition in the United States Bankruptcy Court for the Northern District of Georgia,
Newnan Division which was assigned Case Number 16-12409-WHD. A true and
correct copy of the Bankruptcy Docket Sheet is attached hereto as Exhibit C
(Appendix A).
16. Respondent Wells Fargo and Respondent U.S. Bank were given due
notice of Petitioner’s bankruptcy filing.
17. In early January 2017, Petitioner received a letter from Premiere Asset
Services which advised him that the Subject Property had undergone a change of
ownership. The letter did not say who the new owner is but stated that Respondent
Wells Fargo was now the “Servicer” of the alleged mortgage debt.
18. Upon further research, Petitioner discovered that a foreclosure sale of
the Subject Property is alleged to have taken place on December 6, 2016 at which
Respondent U.S. Bank purchased the Subject Property for $247,050.00.
19. If a foreclosure sale took place on the Subject Property on December 6,
2016, said sale is in violation of the Automatic Stay which was then in effect.
20. If a foreclosure sale took place on December 6, 2016, then said sale
took place without providing Petitioner the notices and remedies to which he is
entitled under the Note, the Security Deed, and Georgia law.

19

21. If a foreclosure sale took place on December 6, 2016, then said sale is
wrongful because there is no mortgage debt outstanding against the Subject
Property, the sale is in violation of the Automatic Stay afforded to those who file
bankruptcy, and the sale violated the Note, the Security Deed and Georgia law.
22. As a result of Respondents’ misconduct, Petitioner has suffered severe
emotional and mental anguish and distress which exceeds the minimal jurisdictional
limits of the Court and for which Petitioner hereby sues.
23. The conduct of Respondent U.S. Bank in pursuing a wrongful
foreclosure is wanton, with malice, reckless, and in total disregard to Petitioner’s
rights to such a degree that the Court should assess punitive damages against
Respondents, jointly and severally, in a sum which exceeds the minimal
jurisdictional limits of the Court.
24. The foreclosure sale, if in fact it occurred, has resulted in the taking of
Petitioner’s home, the Subject Property, which results in damages to Petitioner in a
manner that cannot be compensated adequately by money damages even though the
loss of the house constitutes damages in excess of $253,000.00; all of such damages
for which Petitioner hereby sues for money damages and injunctive relief.
25. On January 3, 2019, the District Judge signed an Order referring the
case to a magistrate judge to determine whether Petitioner’s claims are barred by res
judicata. (Appendix B)
20

26. Petitioner contends that it was error for the District Judge to raise the
issue of res judicata sua sponte as doing so violated Fed. R. Civ. P. 8 and also
violated Petitioner’s due process rights.
27. On January 28, 2019, Respondents filed their joint Motion to Dismiss
Petitioner’s Complaint under Fed.R.Civ.P. 12(b)(6). Respondents did not raise the
issue of res judicata.
28. Petitioner contends that res judicata is an affirmative defense and the
failure of Respondents to assert the defense means that they waived it.
29. On February 11, 2019, Petitioner filed his Response in Opposition to
Respondents’ Motion to Dismiss.
30. On July 22, 2019, the Magistrate Judge issued his Final Report and
Recommendations. The Magistrate Judge recommended that Petitioner’s Complaint
be dismissed as barred by res judicata and in the alternative, for failure to state a
claim. (Appendix C)
31. On August 1, 2019, Petitioner filed his objections to the Magistrate
Judge’s Final Report and Recommendations.
32. Respondents filed their Reply on August 13, 2019.
33. On August 19, 2019, the District Judge signed his order adopting most
of the Magistrate Judge’s recommendations. (Appendix D) The District Judge ruled
that Petitioner’s claims are barred by res judicata, his negligence claim is barred by
21

HAMP, and he should not have been allowed to amend his fraud claim as such claim
is barred by res judicata. Petitioner contends that the District Judge erred in each of
these rulings.
34. On August 19,2019, the Clerk issued the final judgment. (Appendix E)
35. On August 30, 2019, Petitioner filed his Motion for New Trial.
(Appendix F)
36. Respondents filed their response in opposition to my Motion for New
Trial on September 13, 2019.
37. On September 19, 2019, Petitioner filed his Motion to Stay the
judgment of dismissal pending his appeal in which Petitioner sought to stop
Respondents from trying to evict him from his home.
38. Also, on September 19, 2019, Petitioner filed his Notice of Appeal.
(Appendix G)
39. Further, on September 19, 2019, the Court signed its Order denying
Petitioner’s Motion for New Trial which the District Court took as a Motion for
Reconsideration. (Appendix H)
40. On October 3, 2019 Respondents filed their Response in Opposition to
Petitioner’s Motion for Stay.
41. Petitioner filed his Reply on October 10, 2019.

22

42. The District Judge signed its Order denying Petitioner’s Motion for
Stay on October 18, 2019.
43. The Court of Appeals for the Eleventh Circuit issued its opinion
affirming the District Court’s Judgment on April 15, 2020. (Appendix I)
44. On that same date, the Clerk issued a Judgment consistent with the
Appeals Court’s decision. (Appendix J)
45. Thereafter Petitioner filed a Motion for Rehearing.
46. The Appeals Court issued its Order denying Petitioner’s Motion for
Rehearing on May 27, 2020. ((Appendix J)
ARGUMENT IN SUPPORT OF GRANTING
THE WRIT
RULES OF THE SUPREME COURT
SCOTUS RULE 10
RULE 10. Considerations Governing Review on Certiorari
a)

a United States court of appeals has entered a decision in conflict
with the decision of another United States court of appeals on the
same important matter; has decided an important federal question
in a way that conflicts with a decision by a state court of last
resort; or has so far departed from the accepted and usual course

23

ofjudicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court's supervisory power;
The Eleventh Circuit Court of Appeal’s decision in this matter is in conflict
with the decisions of other Circuit Courts as well as this Court’s decision in Arizona
v. California, 530 U.S. 392 (2000). Further, if the decision by the Eleventh Circuit
Court of Appeals is allowed to remain as is, it will disrupt judicial proceedings and
put pro se litigants at a grave disadvantage as well as upend the accepted and usual
role of a District Judge.
Certiorari is warranted. The decision of the Court of Appeals poses a serious
obstacle to the administration of the law in the Eleventh Circuit. The Eleventh
Circuit’s decision to allow District Judges to raise the issue of res judicata sua sponte
undermines our traditional adversary judicial process and eviscerates Fed.R.Civ.P.
8. Further, the ruling violates the due process rights of litigants, especially pro se
litigants.
Moreover, the ruling under review conflicts with this Court’s ruling in
Arizona v. California, 530 U.S. 392 (2000) as well as the decisions of several other
circuit courts of appeals. As set forth below, the Eleventh Circuit’s ruling
impermissibly expands this Court’s opinion in Arizona in a way not contemplated
by this Court on a matter which destroys national uniformity and strips judges of

24

their impartiality. Petitioner therefore respectfully petitions for this Court to review
the judgment of the Eleventh Circuit Court of Appeals.

I.

Does the Supreme Court’s Ruling in Arizona v. California. 530 U.S.
392 (2000) empower a District Judge to Raise the issue of res judicata
sua sponte in a case where the District Judge refers the Case to a
Magistrate to determine if res judicata applies to the case?

II.

If the Supreme Court answers yes to the above question, then Does
the Raising of the Issue of res judicate Violate a Pro Se Litigant’s Due
Process Rights and does such action undermine the Adversary Process
of our Legal System?

Fed.R.Civ.P. 8 lists res judicata as an affirmative defense which “must” be
raised by a party._ Fed.R.Civ.P. 8 provides in relevant part:
(c) Affirmative Defenses.
(1) In General. In responding to a pleading, a party must affirmatively
state any avoidance or affirmative defense, including (emphasis
added):
... res judicata
With all due respect to the District Judge, he is not a party to the action and
thus it was improper for the District Judge to raise the issue of res judicata. “[A]
25

judge does well to respect the limitation of the role of his office ... The judge,
circumscribed by his station and its duties, will echo Holmes and remind himself
that he is not God or even the legislature.”6 Holmes through Freund offers good
advice and a guiding principle which will avoid the type of miscarriage of justice
which took place in the Court below.
Rule 8 says clearly that res judicata is an affirmative defense which must be
raised by a party in its first responsive pleading. How can it be that a Federal judge
who is charged with enforcing the rules of civil procedure should himself violate
such rules? Is the rule maker not subject to the rules? Or, are we faced with a God?
A.

Appellees were required to raise the affirmative defense of res judicata in
their Motion to Dismiss and in not raising the defense they waived it.
Resjudicata is an affirmative defense which must be pled, and may be waived,

by the defendant. Louisville N.R. Co. v. M/VBayou Lacombe, 597 F.2d 469, 471 n.
1 (5th Cir. 1979) ("Res judicata is an affirmative defense.) “That defense was waived
when the defendant failed to raise it below.")” Norfolk Southern Corp. v. Chevron,
U.S.A, 371 F.3d 1285, 1289 (11th Cir. 2004). Clearly, it was error for the District
Judge to dismiss Petitioner’s Complaint on the basis of res judicata since that
affirmative defense was waived by the Respondents. In affirming the District

6 Freund, Paul A. "On Law and Justice." Belknap Press of Harvard University Press, Cambridge, 1968. P71.

26

Judge’s error, the Eleventh Circuit has sent a shock wave through litigation in the
Eleventh Circuit which this Court is being asked to correct.
B. The District Judge’s raising of the issue of res judicata violated Petitioner’s
due process rights and shows unacceptable bias.
[A]n impartial decisionmaker is an essential right in civil proceedings ...
Goldberg v. Kelly, 397 U.S. 254, 271 (1970). Impartiality preserves both the
“appearance and reality of fairness ... by ensuring that no person will be deprived
of his interests in the absence of a proceeding in which he may present his case with
assurance that the arbiter is not predisposed to find against him.” Schweiker v.
McClure, 456 U.S. 188, 195 (1982). Sometimes, to ensure an impartial tribunal, the
Due Process Clause requires a judge to recuse himself from a case. Caperton v. A.
T. Massey Coal Co., Inc., 556 U.S. 868 (2009).
The District Judge left his role as judge and became an advocate which put
the pro se Petitioner at a serious disadvantage which violated Petitioner’s due
process rights and even if the District Judge did not intend to, he showed bias against
Petitioner which rises to a constitutional level, Caperton. This Honorable Court is
asked to avenge this violation by reversing the decision dismissing Petitioner’s
Complaint on res judicata grounds.
In (B)(1) of Respondents’ Brief, they argue that this Court has crafted a rule
which allowed the trial judge below to raise the issue of res judicata sua sponte.

27

Respondents cite Arizona v. California, 530 U.S. 392 (2000) to support their
argument. In Arizona, this Court wrote:
Judicial initiative of this sort might be appropriate in
special circumstances. Most notably, "if a court is on notice that it has
previously decided the issue presented, the court may dismiss the
action sua sponte, even though the defense has not been raised. This
result is fully consistent with the policies underlying res judicata: it is
not based solely on the defendant's

interest in avoiding the burdens

of twice defending a suit but is also based on the avoidance of
unnecessary judicial waste. Arizona v. California, 530 U.S. 392, 412
(2000) (emphasis added, internal citation omitted).
Petitioner contends that Arizona does not apply here because the District
Judge did not dismiss the case sua sponte. Instead, the District Judge in his order
referring the case to a magistrate stated that the claims in the present lawsuit seems
“similar” to claims in a previous case. (Appendix B). This referral of the matter to
the magistrate does not avoid “unnecessary judicial waste” because the same
procedure and judicial expenditures occur the same as if the Respondents had raised
the issue of res judicata as they were obligated to do. In addition, it is undisputed
that there were claims raised in Petitioner’s second lawsuit which were not raised in
the first one. Consequently, the rule cited above would have permitted the Trial
28

Judge to dismiss any claims litigated in Petitioner’s previous lawsuit, but the District
Judge could not raise res judicata sua sponte on issues not previously litigated. As
this Court notes in Arizona, “Where no judicial resources have been spent on the
resolution of a question, trial courts must be eroding the principle of party
presentation so basic to our system of adjudication.” Arizona v. California, 530 U.S.
392, 412-13 (2000). The District Judge in raising the issue of res judicata sua sponte
on all of Petitioner’s claims eroded “the principle of party presentation so basic to
our system of adjudication,” id. In affirming the District Court’s error, the Eleventh
Circuit has compounded this error.
Respondents also claim that they were not required to raise res judicata in their
motion to dismiss because a motion to dismiss is not a responsive pleading. That
argument seems illogical because why else would Respondents file a motion to
dismiss except in response to Petitioner’s lawsuit. Respondents make their argument
without pointing out in what way Petitioner’s argument to the contrary is flawed.
Thus, with the indulgence of the Court Petitioner incorporates that argument here by
reference as if fully set forth herein. In addition, Petitioner cites Fed.R.Civ.P. 8
which talks about “responding to a pleading.” The Rule is not limited as to the type
of pleading nor does it make the “responsive pleading” distinction made by
Respondents. A Motion to Dismiss is clearly responding to a pleading (Petitioner’s
Complaint) and as such the Motion to Dismiss was required to raise the issue of res
29

judicata. The defense of res judicata must be raised in the first pleading in response
to a complaint whether that response is in the form of an answer or a motion to
dismiss, or the issue is waived. In re Air Crash Disaster, 879 F. Supp. 1196 (N.D.
Ga. 1994). Respondents did not raise the issue of res judicata in their Motion to
Dismiss and failing to do so they waived their right to do so later.
Consequently, the panel’s decision represents an impermissible departure
from established law where this Court has held that a district judge may dismiss a
complaint sua sponte but otherwise may not raise the issue of res judicata because
res judicata is an affirmative defense which must be raised by the parties to the
lawsuit. The distinction between the two is critical. The panel’s decision misapplies
the rule of this Court’s decision in Arizona v. California, 530 U.S. 392, 412 (2000)
and in so doing violates Petitioner’s due process rights by expanding judicial
activism in a way not contemplated by this Court.
Finally, the panel’s decision departs from the Eleventh Circuit Court’s own
bright-line rule that “this Court typically does not raise claims or defenses on behalf
of those who appear before it.” See U.S. v. Burkhalter, 966 F. Supp. 1223,1225 n. 4
(S.D.Ga. 1997) ("It is not the province of this Court to raise issues on behalf of
litigants before it"); see also GJR Investments, Inc. v. County ofEscambia, Fla., 132
F.3d 1359, 1369 (11th Cir. 1998) ("legal parameters of a given dispute are framed

30

by the positions advanced by the adversaries, and may not be expanded sua sponte
by the trial judge") (internal quotes and cite omitted).
Accordingly, this Honorable Court should grant the petition for certiorari to
ensure consistent and adequate enforcement of Federal law and procedure.

CONCLUSION
For the above reasons, Petitioner respectfully requests that this petition for a
writ of certiorari be granted to review the judgment and opinion of the Court of
Appeals for the Eleventh Circuit.
Respectfully submitted this 30th day of July 2020,

Timothy B. Brown
C/O 165 Monticello Way
Fayetteville, GA
Zip code exempt [30214]
Without the United States Corporation
770-827-6458
PETITIONER Pro Per/Sui Juris

31

